                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF NVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

11 Case Number: 107060016                                                               Page 1 of 1



       An institution1 reported that an internal audit questioned payments of $27,800 to several
       individuals2 under an NSF award.3 Documentation showed the individuals received stipend
       payments for participating in the award as students. However, the audit found that the
       individuals were not students when they received stipend payments. A former project manager4
       approved the stipend payments to the individuals.

       When interviewed, the former project manager acknowledged that the individuals were not
       students when they received stipend payments. She said the individuals performed legitimate
       work on the award. She acknowledged that she used the wrong expense form to report the work
       of the individuals. She blamed the mistake on a technical error and denied any involvement of
       fraud.

       We interviewed the individuals who received stipend payments. The individuals stated they were
       paid as workers- not students, and that they were not students when they received payments. The
       individuals stated they performed legitimate work and denied any involvement of fraud.

11     Due to the questionable payments, the institution refunded the $27,800 in stipend-payment
